OFF
  FICE OF IN
           NSPE
              ECTO
                 OR GE
                     ENER
                        RAL


AUDIT OF USAIID/SO
                 OUTTHERRN
AFR
  RICA
     A’S REGIIONAAL HIV/A
                        AIDS
PROGRRAM IN LESO OTHOO


AUDIT REPO
         ORT NOO. 4-632
                      2-12-00
                            01-P 

OCTO
   OBER 6, 2011





PRET
   TORIA, SOUTH
              H AFRIC
                    CA

Office off Inspector General


October 6, 2011


MEMORA
     ANDUM

TO:       	          USAID
                         D/Southern Africa Missio
                                                on Director, Jeff Borns

FROM: 	              Regio
                         onal Inspecto
                                     or General/P
                                                Pretoria, Chrristine M. Byyrne /s/

SUBJEC
     CT: 	           Audit of USAID/So
                                     outhern Afric          al HIV/AIDS
                                                 ca’s Regiona         S Program in
                                                                                 n Lesotho
                     (Repoort Number 4-632-12-001-P)

This memorandum transmits our final repport on the  e subject au   udit. We have consid
                                                                                      dered
managemment’s comments on the draft report and ha    ave incorpo  orated them as approp
                                                                                      priate.
Managemment commeents have be
                            een included
                                       d in their ent irety in Appe
                                                                  endix II.

This report includes
                   s four recom mmendations to streng   gthen the mission’s Re  egional HIV//AIDS
Program in Lesotho o. Based on managem      ment’s comm ments on the draft repo  ort, manage
                                                                                           ement
decisions
        s have beenn reached on n all four rec
                                             commendatiions, and finnal action ha
                                                                                as been takeen on
Recomm mendation 2. Please provide the Office of Audit Performan     nce and Com mpliance Divvision
with the necessary documentatiion to achie   eve final acttion on Reccommendatio ons 1, 3, annd 4.
Recomm mendation 2 is
                    s closed on report issuannce.

I want to express my
                   y sincere app
                               preciation fo
                                           or the coope ration and courtesy exte
                                                                               ended to myy staff
during the audit.




U.S. Agency for International Development
            pector General/ Prretoria
Regional Insp
100 Totius Sttreet
P.O. Box 43 Groenkloof
            7, South Africa
Pretoria 0027
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     U.S. Government Activities in Lesotho Were Not Sufficiently Coordinated ........................... 4 


     Use of Certain Subgrantees by Pact Led to Increased Costs ................................................. 5 


     Pact Fell Short of Achieving Fiscal Year 2010 Performance Targets ..................................... 6 


     Health Facilities Did Not Always Document Gender Considerations ..................................... 7 


     Mission Lacked Sufficient Indicators to Measure John Snow Inc.’s Progress ........................ 8 


Evaluation of Management Comments................................................................................... 10 


Appendix I – Scope and Methodology .................................................................................... 11 


Appendix II – Management Comments ................................................................................... 13 


Appendix III – Results of Audit Testing of Indicators............................................................ 17 


Appendix IV –Audit Testing of Data From the Elizabeth Glazer 

Pediatric AIDS Foundation....................................................................................................... 18 


Abbreviations

The following abbreviations appear in this report:

ADS                  Automated Directives System
APS                  annual program statement
CDC                  Centers for Disease Control and Prevention
CRS                  Catholic Relief Services
EGPAF                Elizabeth Glazer Pediatric AIDS Foundation (also referred to as the Glaser Foundation)
FY                   fiscal year
JSI                  John Snow Inc.
MCC                  Millennium Challenge Corporation
NGO                  nongovernmental organization
PEPFAR               President’s Emergency Program for AIDS Relief
PMTCT                prevention of mother-to-child transmission of HIV
PSI                  Population Services International
RHAP                 Regional HIV/AIDS Program Office
SUMMARY OF RESULTS 

The 2010 AIDS epidemic update by the Joint United Nations Programme on HIV/AIDS showed
that Lesotho, with more than 23 percent of its adult population infected with HIV, has the third
highest prevalence rate in the world, after Swaziland and Botswana.1 It is estimated that up to
40 percent of all Lesotho children have lost one or both parents to the disease. Infection levels
are highest in urban areas, and women account for approximately 57 percent of people living
with HIV/AIDS. The epidemic is driven by multiple, concurrent sexual partnerships, with married
couples and couples in long-term relationships identified as the main transmitters of the
disease. Transactional and transgenerational sexual relationships are also commonplace
because of societal factors such as population migration and widespread poverty.

In response to Lesotho’s HIV/AIDS epidemic, U.S. Government support through the President’s
Emergency Program for AIDS Relief (PEPFAR) has steadily increased, from $1 million prior to
2005 to $37 million in 2010. Despite this assistance, Lesotho’s HIV/AIDS response suffers from
a severe human resource crisis, which is compromising the health system’s ability to provide
needed services. Furthermore, Lesotho’s system suffers from inadequate and overburdened
facilities, weak laboratory and supply chain systems, and a lack of credible information for data-
driven decision making. Mountainous terrain and an underdeveloped road system mean that
access to services for the vast majority of the population is extremely challenging.

The Government of Lesotho coordinates the national response to HIV/AIDS through its National
AIDS Commission, following the framework set out in the National Strategic Plan (2006–2011).
Through PEPFAR, the U.S. Government and its partners are helping Lesotho implement its
national response by providing financial support and technical expertise. To strengthen this
support, in August 2009 the U.S. Government and the Government of Lesotho signed the U.S.-
Lesotho partnership framework on HIV and AIDS for 2009–2014. It focuses on achieving four
key goals: (1) reducing HIV incidence; (2) reducing HIV/AIDS-related morbidity and mortality by
providing treatment and care to people living with HIV and to orphans and vulnerable children;
(3) improving human resource capacity to deliver HIV services; and (4) strengthening health
management information systems, labs, organizational capacity, and supply chains. The
interagency PEPFAR program in Lesotho is organized around the four goals of the partnership
framework, and is planned and administered by five U.S. Government agencies.2

USAID/Southern Africa’s support in Lesotho, through its Regional HIV/AIDS Program (RHAP)
Office, focuses on preventing HIV transmission through prevention of mother-to-child
transmission (PMTCT), male circumcision, changing of sexual behaviors, treatment and care for
both adults and children, support for orphans and vulnerable children, capacity building in the
use of strategic information, and strengthening of public and private health systems.3 Table 1
shows the program areas reviewed in this audit.



1
  The prevalence rate is the percentage of people living with the disease at a specified point in time. The
rate given here is for adults aged 15 to 49. In 2009, the comparable rate for sub-Saharan Africa was
5 percent.
2
  USAID, the Centers for Disease Control and Prevention (CDC), the Peace Corps, and the Departments
of State and Defense.
3
  In addition to Lesotho, USAID/Southern Africa’s RHAP office manages USAID’s HIV activities in
Swaziland and Botswana.

                                                                                                         1
                   Table 1. Regional HIV/AIDS Program Activities in Lesotho
   Program Area        Implementer             Period              Amount            Obligations
                                                                 ($ millions)        ($ millions)
                     Elizabeth Glaser
                     Pediatric AIDS
                                        February 16, 2010–
  PMTCT              Foundation (the                                 24.5                  5.4
                                        February 15, 2015
                     Glaser
                     Foundation)
  Prevention and                         October 1, 2009–
                     Pact                                            12.0                  2.6
  Care                                  September 30, 2014
                                                                                         18.0
                                         October 1, 2006–                                 (2.8
  Health Systems     IntraHealth*                                    19.0
                                         January 31, 2011                                  in
                                                                                       Lesotho)
  Strategic          John Snow Inc.        July 8, 2008–
                                                                      1.5                  0.8
  Information        (JSI)                  July 7, 2013
* IntraHealth was the contractor for this program, which is more commonly known as the Southern

Africa Human Capacity Development Coalition, or simply as the Coalition.


The audit’s objective was to determine whether USAID/Southern Africa’s regional HIV/AIDS
program was achieving its main goal of mitigating the impact of the epidemic in Lesotho. The
audit determined that although the mission was making progress toward this goal, progress was
hampered by some deficiencies in the implementation and supervision of several activities.
Table 2 summarizes the answer to the audit objective for the various program areas examined.
Appendix III contains the specific fiscal year (FY) 2010 indicators tested during the audit, with
associated results, targets, and applicable program areas. Appendix IV presents summaries of
data tested and discrepancies noted in the testing of the Glaser Foundation’s data.

                               Table 2. Summary of Audit Results
                                             Did HIV/AIDS Activities in This Program Area
                Program Area
                                                           Achieve Their Goals?
                                        Yes. The Glaser Foundation determined the HIV status
                                        of a reported 24,622 pregnant women and treated 4,758
                                        HIV-positive pregnant women to reduce the risk of
    PMTCT
                                        mother-to-child transmission, achieving 96 percent of its
                                        planned results in these key areas. Greater male
                                        involvement in PMTCT would enhance effectiveness.
                                        No.      Pact reached 2,631 people with preventive
                                        interventions, which was only 12 percent of its target for
    Prevention and Care
                                        two primary planned results. Overall, Pact did not
                                        achieve 13 of its 16 FY 2010 results.
                                        Mixed.      There were some achievements, but poor
    Health Systems Strengthening—
                                        financial management prevented completion of several
    Human and Institutional Capacity
                                        activities. Some reported results were unsupported;
    Building
                                        coordination with other activities needed improvement.
                                        Could not determine.        JSI’s activities did not have
    Strategic Information
                                        sufficient indicators to measure their overall performance.




                                                                                                      2
The mission’s activities in Lesotho have suffered from the following problems that have impeded
progress or made progress difficult to measure:

•	 U.S. Government activities in Lesotho were not sufficiently coordinated (page 4).

•	 Use of certain subgrantees by Pact led to increased costs (page 5).

•	 Pact fell short of achieving FY 2010 performance targets (page 6).

•	 Health facilities did not always document gender considerations (page 7).

•	 The mission lacked sufficient indicators to measure JSI’s progress (page 8).

To assist USAID/Southern Africa in strengthening its HIV/AIDS activities in Lesotho, the report
recommends that the mission:

1. 	 Develop and implement a plan to hold regular program coordination forums with its Lesotho
     implementing partners, and provide written invitations to other U.S. Government agencies in
     Lesotho and their implementing partners to participate (page 5).

2. 	 Determine whether Pact is achieving its performance targets and document the results, and
     develop and implement a plan to help enable Pact to achieve its targets if it is not doing so
     (page 7).

3. 	Develop and implement a gender strategy to require that its HIV/AIDS programming in
    Lesotho systematically address PEPFAR’s gender-related goals (page 8).

4. 	 Collaborate with the Centers for Disease Control and Prevention (CDC) in Lesotho to put in
     place additional performance indicators and monitoring and evaluation tools that USAID
     officials can directly access to measure whether JSI is fulfilling the terms of its contract with
     USAID in Lesotho (page 9).

Detailed findings appear in the following section; the audit’s scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of management
comments is included on page 10 of the report.




                                                                                                    3
AUDIT FINDINGS 

U.S. Government Activities in
Lesotho Were Not Sufficiently
Coordinated
The careful coordination of foreign assistance is imperative if U.S. taxpayer funds are to be
spent effectively and efficiently. To this end, USAID guidance (Automated Directives System
[ADS] 200.3.3) states that mutual accountability of donors and recipients requires, among other
things, that donors coordinate their programs to avoid duplication of effort.

In Lesotho, several U.S. Government programs have engaged in various activities to help
strengthen the country’s health systems through improved human resource capability. The
Maternal and Child Health Integrated Program, implemented by Jhpiego4 through a centrally
managed award from USAID/Washington, provided rudimentary preservice education to
prospective health-care workers on behalf of the Christian Health Association of Lesotho, the
major private sector health-care provider in Lesotho. Meanwhile, the Millennium Challenge
Corporation (MCC) engaged a firm to improve health systems in the Lesotho public sector.
Finally, the Coalition, managed by the RHAP office, was involved in a number of public and
private sector human resources activities.

Despite Agency guidance highlighting the importance of program coordination, some activities
were not sufficiently coordinated among U.S. Government programs. For example, a USAID
official in Lesotho observed that MCC and the Maternal and Child Health Integrated Program
ultimately developed two separate preservice training curricula for the public sector and the
Christian Health Association of Lesotho, respectively. In this official’s opinion, separate
curricula were not conducive to effective training of health-care workers or service delivery.
Moreover, given its mandate to assist both the public and private sectors, the Coalition was
uniquely positioned to work with the Government of Lesotho in developing a standardized
training curriculum. According to a Coalition official, however, the Coalition did not assume this
overarching role because a former USAID official determined that Jhpiego had the most
expertise in preservice training.

Another area in which the activities of MCC and the Coalition overlapped was the
decentralization of the Lesotho health-care system. As part of this effort, the Coalition
supported the salary of a decentralization coordinator in the Ministry of Health and Social
Welfare, while the MCC program was also working on decentralization issues. However,
according to officials from the Coalition and the ministry, the decentralization coordinator and
the MCC consultant had a poor working relationship. A ministry official stated that she
recognized the negative implications of this relationship and made unsuccessful attempts to
reconcile their differences. Moreover, this official averred that different stakeholders “not being
on the same page” helped to foster this unfavorable environment. She concluded that the
conflict and lack of coordination between these officials compromised performance, limited the
effectiveness of the MCC program, and hindered the decentralization process.



4
    Jhpiego is an international nonprofit health organization affiliated with The Johns Hopkins University.

                                                                                                              4
The causes of this lack of adequate coordination varied. For example, high staff turnover and
the extended vacancy of key positions such as country director hampered USAID’s oversight of
its activities in Lesotho. According to one USAID official, this contributed to a situation in which
USAID gave insufficient attention to the Coalition. Moreover, the discontinuity in Lesotho-based
supervision led to the lapse of management practices that addressed program coordination.
For example, a Coalition official stated that USAID used to hold forums for Lesotho
implementing partners where activities were mapped on a district-by-district basis to improve
coordination and avoid duplication. Although this official found the forums to be very useful and
informative, they were discontinued after key positions became vacant.

Insufficient coordination among U.S. Government programs not only impairs the effectiveness
and efficiency of U.S. funds, but also impedes development objectives for the host country. For
example, this inefficiency was reflected in the ministry official’s comments regarding the
hindrance of the decentralization process. Although the mission’s hiring of a full-time USAID
country director will improve program oversight and coordination, the use of proven and
effective management practices should be reestablished. Consequently, this audit makes the
following recommendation.

    Recommendation 1. We recommend that USAID/Southern Africa (1) develop and
    implement a plan to hold regular program coordination forums with its Lesotho
    implementing partners and (2) provide written invitations to other U.S. Government
    agencies in Lesotho and their implementing partners to participate.

Use of Certain Subgrantees
By Pact Led to Increased Costs
Under its original cooperative agreement that ended in FY 2010, one of Pact’s main
responsibilities was to strengthen the effectiveness of its subgrantees in project management,
financial accountability, and monitoring and evaluation. This assistance was primarily intended
to help local nongovernmental organizations (NGOs) become effective, sustainable
organizations that could spearhead Lesotho’s indigenous response to its HIV epidemic.

Despite this focus on building the capacity of smaller, local organizations, several large
international NGOs were included as subgrantees under Pact’s original 2005 cooperative
agreement. CARE, Catholic Relief Services (CRS), and Population Services International (PSI)
were subgrantees even though they were capable of receiving U.S. Government funding directly
and did not need Pact’s capacity-building expertise. These three organizations are major
international NGOs based in the United States that have previously served as USAID prime
implementing partners.5 Their inclusion was thus contrary to one of Pact’s main purposes,
improving the capability of local and regional organizations.

According to mission officials, there was no USAID staff in Lesotho when the original
cooperative agreement was enacted; consequently, the RHAP office in South Africa, which was
itself understaffed at the time, initially managed the agreement. Mission officials noted that
providing the funding for CARE, CRS, and PSI through Pact required the regional office to
oversee only one agreement and one primary implementing partner rather than multiple
5
  Examples include CARE’s $30 million agreement signed in 2006 with USAID’s Office of Food for Peace
to implement the Livelihood Expansion and Asset Development Program in Sierra Leone; CRS’s
leadership of a consortium implementing a $31 million, 5-year project that began in 2008 to reduce food
insecurity in Mali; and PSI’s $30 million cooperative agreement to fight malaria in Tanzania.

                                                                                                     5
agreements and partners. Although CARE, CRS, and PSI could have been funded directly,
these officials stated that funding through Pact was a sound decision given the regional office’s
limited management resources. Furthermore, mission officials added that the emergency
nature of PEPFAR’s initial phase, coupled with the dearth of competent Lesotho HIV service
providers, also led to the use of international NGOs under Pact’s original cooperative
agreement.

Even though the inclusion of CARE, CRS, and PSI under Pact was a reasonable management
decision at the time, it resulted in an additional layer of costs. The Lesotho portion of the
original cooperative agreement was $6,941,736, of which Pact awarded $4,374,699 to 13
NGOs. The share of this amount attributable to CARE, CRS, and PSI was $2,327,096.
Assuming that Pact’s overhead costs were allocated among its subgrantees in proportion to
their awarded amounts, more than $1 million was spent on behalf of subgrantees that did not
require Pact’s capacity-building and grants management services. Conversely, assuming that
none of Pact’s overhead costs were allocable to CARE, CRS, and PSI, Pact’s provisional
indirect cost rate for subgrants would still have resulted in additional spending.

USAID has a fiduciary responsibility to spend U.S. taxpayer funds as effectively and efficiently
as possible. In the current fiscal climate, decisions made for administrative and programmatic
expediency that carry cost implications must be carefully scrutinized to ensure that they are
necessary for achieving essential U.S. foreign policy priorities. However, since the current Pact
cooperative agreement, which ends in September 2014, does not include subgrantees such as
CARE, CRS, and PSI, this audit is not making any recommendations on this issue at this time.

Pact Fell Short of Achieving Fiscal
Year 2010 Performance Targets
For FY 2010, Pact and USAID established targets for 16 performance indicators encompassing
various HIV care, prevention, and capacity-building activities. However, Pact reported that it did
not achieve targets for 13 of those indicators, often by significant margins. The audit selected
two indicators for detailed testing. Although auditors verified the results as accurate, they were
significantly below target.

For its two main prevention indicators, Pact reached only 2,631 of its target population of 21,667
with basic prevention interventions, or 12.1 percent of its FY 2010 target.6 This shortcoming
was partially caused by Pact’s transition from the original 5-year cooperative agreement to the
new one, effective October 1, 2009. As part of this transition, Pact issued an annual program
statement (APS) in September 2009 inviting interested local and international NGOs to apply for
funding under the new agreement. However, this APS was cancelled in December 2009 under
the direction of USAID. According to mission officials, the APS contained program activities for
which budgeted funds were ultimately not provided. Nevertheless, Pact included these activities
in the APS as directed in a verbal statement from a former USAID official that funding would be
available. The APS was eventually reissued in April 2010, causing delays in project
implementation and failures to achieve the majority of performance indicator targets.


6
  Pact’s two main prevention indicators are (1) Number of targeted population reached with individual
and/or small group level preventive interventions that are based on evidence and/or meet the minimum
standard requirements and (2) Number of the targeted population reached with individual and/or small
group level preventive interventions that are primarily focused on abstinence and/or being faithful, and are
based on evidence and/or meet the minimum standards required.

                                                                                                          6
As a result of the APS reissuance and accompanying delays, only one subgrantee, the Anti
Drug Abuse Association of Lesotho, substantially contributed to the program’s key prevention
results. The target for those indicators, 21,667, was originally planned to be achieved through a
joint effort by six subgrantees.

The inability to meet established targets hindered USAID’s efforts to mitigate the impact of
HIV/AIDS in Lesotho. Pact spent approximately 76 percent of its FY 2010 obligated budget for
personnel, fringe benefits, allowances, travel, and indirect costs, but only 12 percent on
contractual obligations, including subgrantees. As a result, the delays in implementing the new
agreement had a financial effect in addition to the programmatic issues. To help expedite the
progress and improve the effectiveness of USAID’s HIV/AIDS program in Lesotho, this audit
makes the following recommendation.

    Recommendation 2. We recommend that USAID/Southern Africa (1) determine
    whether Pact is currently achieving performance targets and document the results and
    (2) develop and implement a plan to help enable Pact to achieve its targets if it is not
    doing so.

Health Facilities Did Not Always
Document Gender Considerations
According to the PEPFAR Gender Framework,7 men play a critical role in achieving positive
HIV/AIDS outcomes, whether as clients of health services, supportive partners, or active
participants in promoting gender equality. Recognizing that men can either impede or enhance
health interventions, PEPFAR encourages programs to promote positive male engagement and
behavioral change. This is particularly relevant in Lesotho, where married couples and couples
in long-term relationships are the main transmitters of HIV. Men play an important role in
PMTCT by helping their pregnant partners adhere to prescribed prevention and treatment
regimens. As part of this effort, a PEPFAR practice aid8 advises engaging male partners in
PMTCT programs and providing them counseling and testing. It further states that these
activities should be managed with sex-disaggregated data analysis to understand better the
gender dimensions of HIV/AIDS epidemics.

During site visits to 17 health facilities providing antenatal services, auditors conducted random
spot checks of files of HIV-positive pregnant women. Although standard patient data forms
contained a section to record the male partner’s information and HIV status, this section was not
completed in 33 of the 39 files reviewed. The auditors also observed that men were largely
absent from health facilities visited. Health facility staff confirmed that the lack of male
involvement in antenatal care is a widespread problem in Lesotho.

According to the health facility staff, Lesotho men are customarily reluctant to accompany their
partners to pregnancy and counseling clinics. Moreover, many of these men are transient mine
workers in South Africa and return home only on weekends, when health centers are
closed. Therefore, it is very difficult to locate these partners for testing. Although USAID and
the Glaser Foundation have stated that they are undertaking some outreach efforts, those
efforts were not documented in either the patient registers or individual patient files. As a

7
  The PEPFAR Gender Framework is a document prepared by the Office of the Global AIDS Coordinator
that spells out the overall goals of PEPFAR gender programming and approaches for achieving those goals.
8
  Program Self-Assessment Tool for Integration of Gender into PEPFAR Programs.

                                                                                                      7
result, standard patient data forms were not effective tools for locating male partners and
scheduling follow-up activities, leading to missed opportunities for men to play vital supporting
roles in PMTCT. Moreover, a lack of management follow-up is a missed opportunity for men to
access HIV health services, which is an important element in mitigating the impact of the
epidemic in Lesotho and South Africa. Consequently, this audit makes the following
recommendation.

   Recommendation 3. We recommend that USAID/Southern Africa develop and
   implement a gender strategy to require that its HIV/AIDS programming in Lesotho
   systematically address the President's Emergency Plan for AIDS Relief's gender-related
   goals.

Mission Lacked Sufficient
Indicators to Measure
John Snow Inc.’s Progress
Managing for results is a key USAID tenet toward achieving its development objectives. To this
end, ADS 203.3.2.2b states that USAID missions should use performance information to assess
progress in achieving results and to make management decisions on improving performance.
Performance indicators are vital tools in providing this information. Accordingly, ADS 203.3.4.2g
states that missions should use as many performance indicators as necessary and cost-
effective for results management and reporting purposes.

The JSI contract with USAID covers HIV/AIDS programs in South Africa, Lesotho, and
Swaziland. There are three primary tasks for Lesotho: (1) building capacity for enhanced use
of strategic information, (2) improving data quality, and (3) developing the health management
information system. Activities under these three primary tasks were intended to improve data
collection, analysis, and presentation to promote better use of data in health planning, policy
making, and program implementation.

Despite the breadth of these tasks and USAID guidance on performance indicators, JSI
reported results for only one indicator in FY 2010. This indicator was the number of health-care
workers who successfully completed an in-service training program. According to JSI staff, this
indicator represents only a small portion of JSI’s activities in Lesotho, which included conducting
training in data quality assessment and developing a geographic information system to improve
HIV-related analysis and decision making.

Mission officials explained that JSI was required to report on only one indicator because it was
the only indicator mandated by the Office of the U.S. Global AIDS Coordinator that fit with JSI’s
contract in Lesotho. This idea was reinforced by the CDC activity manager in Lesotho, who also
instructed JSI to report solely on PEPFAR indicators. To manage JSI’s performance and results
in areas not covered by the PEPFAR indicator, USAID/Southern Africa relied on the Lesotho-
based CDC activity manager. However, mission officials explained that this cross-agency
management structure hampered their ability to manage JSI activities. For instance, the CDC
activity manager called meetings with JSI without USAID’s presence; although the CDC activity
manager provided USAID with details of the meeting, USAID did not believe that this approach
was effective because it limited proper communication between JSI and USAID’s technical
experts. In addition, because CDC and USAID have different focuses, CDC would refer JSI to
USAID on some issues and would instruct JSI on other issues, further complicating the


                                                                                                 8
mission’s ability to oversee JSI activities. JSI also tended to resist CDC’s management advice
because its contract was with USAID.

Without adequate performance indicators and USAID management’s timely and direct periodic
monitoring and evaluation of project activities, USAID officials lack objective performance
information to assess progress toward planned results. In these circumstances, the auditors
could not determine the progress of JSI’s activities and their corresponding results under the
contract. Consequently, this audit makes the following recommendation.

   Recommendation 4. We recommend that USAID/Southern Africa collaborate with the
   Centers for Disease Control and Prevention in Lesotho to put in place additional
   performance indicators and monitoring and evaluation tools that USAID officials can
   directly access to adequately measure whether John Snow Inc. is fulfilling the terms of
   its contract with USAID in Lesotho.




                                                                                             9
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Southern Africa agreed with all recommendations.
Management decisions have been reached on all four recommendations, and final action has
been taken on Recommendation 2. A detailed evaluation of management comments follows.

Recommendation 1. USAID/Southern Africa agreed to (1) develop and implement a plan to
hold regular program coordination forums with its Lesotho implementing partners and (2)
provide written invitations to other U.S. Government agencies in Lesotho and their implementing
partners to participate. Regarding the plan to hold regular program coordination meetings, the
mission has already developed a plan, and the first meetings have been held. For example, in
February 2011 the USAID office in Lesotho convened a partners’ meeting to improve
coordination among PEPFAR-funded partners and explore opportunities to link and leverage
services within and across technical areas. They plan to hold these all-partner meetings at least
twice a year. Regarding issuing written invitations to other U.S. Government agencies in
Lesotho, the mission plans to complete the invitations by the end of October 2011. As a result,
a management decision has been reached on Recommendation 1.

Recommendation 2. USAID/Southern Africa agreed to (1) determine whether Pact is currently
achieving performance targets and document the results and (2) develop and implement a plan
to help enable Pact to achieve its targets if it is not doing so. In August 2011 the mission
reviewed Pact’s results from the third quarter of FY 2011 and found that Pact was making
significant progress and had nearly achieved performance targets for all but two indicators.
Regarding the two indicators for which performance particularly needed improvement, the
mission has already developed and implemented a plan to help Pact achieve these targets. As
a result of these actions, a management decision has been reached and final action taken on
Recommendation 2.

Recommendation 3. USAID/Southern Africa agreed to develop and implement a gender
strategy to require that its HIV/AIDS programming in Lesotho systematically address PEPFAR’s
gender-related goals. The USAID office in Lesotho plans to develop and begin implementation
of a robust gender strategy by June 2012. As a result, a management decision has been
reached on Recommendation 3.

Recommendation 4. USAID/Southern Africa agreed to collaborate with the CDC in Lesotho to
put in place additional performance indicators and monitoring and evaluation tools that USAID
officials can directly access to measure JSI’s performance adequately. However, the mission
stated that as of May 31, 2011, JSI’s contract with USAID/Southern Africa in Lesotho had
ended, and that a local partner, the Institute for Health Management, had been selected to
implement the Strategic Information program area in Lesotho for USAID/Southern Africa.
Therefore, the mission and its office in Lesotho plan to work closely with CDC to ensure that
work plans with clear, custom indicators and measurable outputs are developed and used by
the new partner. According to subsequent correspondence from mission officials, the work plan
for the current year will be finalized in October 2011. As a result, a management decision has
been reached on Recommendation 4.



                                                                                              10
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards.9 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. This objective was to determine
whether USAID/Southern Africa’s regional HIV/AIDS program in Lesotho was achieving its main
goal of mitigating the impact of the epidemic on Lesotho. We believe that the evidence obtained
provides that reasonable basis. Audit fieldwork was conducted from December 15, 2010, to May
12, 2011, and covered FY 2010. In FY 2010, the funding for the mission’s HIV/AIDS program in
Lesotho was $26.8 million. As of September 2010, USAID/Southern Africa had agreements with
eight implementing partners working on HIV/AIDS intervention activities in Lesotho. Of these
agreements, the audit focused on four agreements with funding of $9,804,202 in FY 2010, or 69
percent of the total funding for those eight agreements. These four partners had obligated
about $11.6 million as of December 2010. During fieldwork, auditors tested approximately 10
percent of the total results for two key program indicators as illustrated in the tables in Appendix
IV. Additionally, the auditors tested 100 percent of the results reported for selected indicators of
Pact, JSI, and the Coalition shown in Appendix III.

In planning and performing the audit, the audit team assessed management controls related to
management oversight, proper execution of transactions and events, and review of performance
measures and indicators. Specifically, we studied and reviewed the following:

•     FY 2009 and 2010 country operational plans
•     Implementing partners’ agreements and contracts
•     Annual Performance Report on PEPFAR indicators
•     Implementing partners’ quarterly and annual progress reports
•     Performance measures
•     Target and actual performance results for FY 2010

We also interviewed key officials from the USAID/Southern Africa RHAP office, implementing
partners, Government of Lesotho Ministry of Health and Social Welfare, and government
hospital and clinic as well as private hospital and clinic staff. We conducted the audit at the
USAID/Southern Africa RHAP office in Pretoria, at the U.S. Embassy in Lesotho where in-
country USAID personnel are located, at four major implementing partners’ offices in Pretoria
and Maseru, and at 17 hospital and clinic activity sites in six of ten districts of Lesotho.

Methodology
To answer the objective, we interviewed officials from USAID/Southern Africa’s RHAP office, the
Ministry of Health and Social Welfare, implementing partners, and USAID and other PEPFAR
staff based in Lesotho. Interviews were conducted to gain an understanding of the mission’s
activities in Lesotho and to identify the key performance indicators used to measure the


9
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).

                                                                                                 11
                                                                                         Appendix I


contribution of those activities to meeting the main goal of the program. The six indicators
selected were based on consultations with the mission.

Besides verifying data reported by implementing partners, auditors performed site visits at 17
hospitals and clinics in six of ten Lesotho districts to test the accuracy of indicator data supplied
by EGPAF. Auditors judgmentally selected these health facilities to provide maximum and
diversified review coverage of the major district government-owned hospitals and clinics, and
privately administered hospitals and clinics. On arrival at the health facilities, auditors
interviewed the health facility administrators, performed a walk-through of the facilities, and
verified supporting documentation for key PEPFAR indicator results reported to USAID for
FY 2010. Because of the judgmental selection of health facilities visited, site visit results cannot
be projected to the entire universe of health facilities in Lesotho. Auditors verified judgmentally
selected indicator data from subpartners against the data obtained from the respective primary
partner.

For the Pact indicator, the auditors selected without bias 34 students from Excel spreadsheets
supporting the indicator result who attended at least three sessions (a minimum of three
sessions were required before the student could be included in the indicator total). Testing then
consisted of tracing the student from the spreadsheet to the attendance roster for at least three
sessions. No attempt was made to validate the total number of sessions if the student attended
more than three; thus, once three sessions were corroborated, the data point was considered
valid. Our testing revealed no discrepancies.

The indicator for JSI was tested by reviewing supporting documentation. For the Coalition,
supporting documentation was not available at the time of audit fieldwork as noted in the table
on page 17.

We also reviewed documents as part of our audit procedures for developing findings with
criteria. These documents included the 2009 and 2010 country operational plan funding for the
USAID/Southern Africa RHAP office; partners’ contracts, agreements, and related modifications;
and multiple sections of the ADS and Federal Acquisition Regulations incorporated in ADS 302,
“USAID Direct Contracting.”

Given the largely procedural nature of our reviews, we did not set a minimum dollar variance or
rate of exception occurrence for materiality in our test of intervention activities, but considered
rather the nature of the specific activity under review and our judgment as to the deficiency’s
impact on achieving the activities’ overall goals. Nevertheless, our selection of HIV/AIDS
prevention activities to review was driven by the funding levels of the partners (i.e., we chose
partners with the highest funding/most activities). We also set an 80 percent and above
achievement of a quantitative indicator target as satisfactory performance by the implementing
partner; performance below 80 percent of the target was deemed unsatisfactory. After verifying
the above-mentioned data and other information gathered during interviews and a review of
documents, we concluded that the mission was making progress toward mitigating the impact of
the HIV/AIDS epidemic in Lesotho. Table 2 on page 2 summarizes the answer to the audit
objective for the various program areas examined.




                                                                                                  12
                                                                                             Appendix II



MANAGEMENT COMMENTS 


   s..p\em~'.     201 1




   MENORANOUM




   =
   FROM:

   SU8.!ECT:              Audit of USAIDlSoulhern Alii ... •• Regional HIVIIIJDS
                          P'r<>g rant i . L.. ..,1h<> IReport Number 4-632.11.JOU-p!


   nola m.mo .... ndum t.ansmltt. tIM USAIDlSol.Ithern Afric; .. Comm""to, d .. ted
   Sop"''''Mr', 20 11, on 11M R"!I ional Ir>5peeto. G_rallP,etoo1a (RIG ) Draft
   R oport on th. ~b;..ct .. ud it. Tt-. commonts ar. providlKl both in hUd
   copy and eieclron k Ionnat (Mk:rosoft Word).

   On bothalf of USAIDlSout""rn AIrica , I wish to up ..... s 0<1' s i ncere gr.trt.......
   to 11M RIG for conducting the udit and P""P"'inII- d",ft ... port f04' the
   i n order to 51..,ngl""n USAiDlSouthem Afnc,,'s RegIonal HIVIAJDS
   "'0\1"""   In l.s-oillo.




                                                                                                     13
                                                                                      Appendix II




September 8, 2011

USAID/Southern Africa Comments on Audit Report on
USAID/Southern Africa’s Regional HIV/AIDS Program in
Lesotho (Report No. 4-632-11-012-P)


1. Audit Finding: U.S. Government Activities in Lesotho Were Not Sufficiently
Coordinated

Audit Recommendation No 1: We recommend that USAID/Southern Africa (a) develop
and implement a plan to hold regular program coordination forums with its Lesotho
implementing partners; and (b) provide written invitation to other U.S. Government
agencies in Lesotho and their implementing partners to participate.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with audit
recommendation Number 1.

The USAID office in Lesotho has initiated steps to implement this recommendation. In February
2011, the USAID office in Lesotho worked with PEPFAR Lesotho to convene a partners’
meeting to improve coordination among PEPFAR-funded partners and explore opportunities to
link and leverage services within and across technical areas. These all-partner meetings will be
held at least twice per year. The next meeting is scheduled for November 2011.

In addition, the USAID office in Lesotho and PEPFAR Lesotho have established an OVC
Partners’ meeting for PEPFAR funded implementing partners. The first meeting was held in
August 2011. The meeting, which will be held every quarter, is aimed at providing a forum for
partners, the USAID office in Lesotho and PEPFAR Lesotho to share technical information,
including on effective strategies, lessons learned, challenges around programming for OVC, and
how best to utilize resources and minimize duplication of interventions. Activity Managers are
working to establish similar forums across other technical areas.

The USAID office in Lesotho will more proactively collaborate and coordinate activities with the
MCC by holding regular planning meetings with MCC and MCA staff in Lesotho. The PEPFAR
Health Management Information Systems (HMIS) Advisor, based in Lesotho, is working closely
with MCC on HMIS and PEPFAR health systems strengthening (HSS) activities. The
USAID/Southern Africa Human Capacity Development Advisor has also been working on
aligning USAID HSS activities with MCC HSS activities to avoid duplication.

The USAID Office in Lesotho will extend written invitations for these and other coordination
meetings to other U.S. Government agencies implementing PEPFAR, and to the MCC.


2. Audit Finding: Pact Fell Short of Achieving Fiscal Year 2010 Performance Targets

Audit Recommendation: We recommend that USAID/Southern Africa (a) determine
whether Pact is currently achieving performance targets and document the results;


                                                                                               14
                                                                                       Appendix II


and (b) develop and implement a plan to help enable Pact to achieve its targets if it is
not doing so.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with this audit
recommendation.

Due to an internal USAID decision, the process for soliciting sub-partners for Pact was
significantly delayed. The performance of the partner and progress of the program was
therefore compromised, beyond the control of the partner. Despite these delays, Pact now has
nine sub-partners contributing to their overall targets. In August 2011 USAID/Southern Africa
reviewed Pact’s results from the third quarter of FY11 and found that Pact is making significant
progress and has nearly achieved performance targets for all but two indicators.

The two indicators for which performance particularly needs improvement are linked to school-
based prevention interventions. These were delayed due to school holidays and, in certain
instances, lack of commitment from school leadership. In order to address these challenges,
Pact has engaged school principals and district education leadership to ensure that schools
allocate time in the schedule for Pact to work with students and teachers.

USAID/Southern Africa finds that, despite external obstacles, Pact has made sound
management decisions and concerted efforts to position the program to achieve its targets by
the expiration of its Cooperative Agreement with USAID. USAID/Southern Africa will continue to
monitor Pact and its performance indicators for the life of the project. Performance will continue
to be monitored and documented through quarterly reports.


3. Audit Finding: Health Facilities Did Not Always Document Gender Considerations

Audit Recommendation: We recommend that USAID/Southern Africa develop and
implement a gender strategy to require that its HIV/AIDS programming in Lesotho
systematically addresses the President's Emergency Plan for AIDS Relief's gender-
related goals.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with audit
recommendation Number 3.

The USAID office in Lesotho will develop and begin implementation of a robust gender strategy
by June 2012. The strategy will build on the commitment to addressing gender related issues
reflected in the US-Lesotho Partnership Framework on HIV/AIDS. The Framework identifies
gender as a cross-cutting issue that needs to be mainstreamed in all partner work plans to
address gender norms in prevention, care, and treatment programs. In addition, the USAID
office in Lesotho will collaborate with key Government of Lesotho ministries, particularly the
Ministry of Gender, Youth, Sports and Recreation, to ensure that programs funded under
USAID/PEPFAR are supporting implementation of their gender priorities.

The Lesotho prevention of mother to child transmission (PMTCT) acceleration plan includes
activities that will increase male involvement in all aspects of PMTCT. Partners implementing
this plan will be required to report on the gender activities.




                                                                                                15
                                                                                  Appendix II


4. Audit Finding: Mission Lacked Sufficient Indicators to Measure John Snow Inc.’s
Progress

Audit Recommendation: We recommend that USAID/Southern Africa collaborate with the
Centers for Disease Control and Prevention in Lesotho to put in place additional
performance indicators and monitoring and evaluation tools that USAID officials can
directly access to adequately measure whether John Snow, Inc. is fulfilling the terms of
its contract with USAID in Lesotho.

USAID/Southern Africa Comments: USIAD/Southern Africa agrees with audit
recommendation Number 4.

It should be noted, however, that as of May 31, 2011, John Snow, Inc.’s contract with
USAID/Southern Africa in Lesotho ended. A local partner, the Institute for Health Management
(IHM), has been selected to implement Strategic Information in Lesotho for USAID/Southern
Africa.

In order to improve collaboration with CDC and avoid issues faced with the previous partner,
USAID/Southern Africa and the USAID Office in Lesotho will work closely with CDC to ensure
that work plans with clear, custom indicators and measurable outputs are developed and used
by the new partner. The work plan for the current year is currently being negotiated between
USAID/Southern Africa, the USAID office in Lesotho, CDC, and the new partner. This should be
finalized by the end of September 2011.




                                                                                           16
                                                                                     Appendix III


                     Results of Audit Testing of Indicators
                                                        Partner –        Reported
                 Indicator Tested                                                   Target
                                                      Program Area        Result*
 Number of pregnant women with known HIV
 status (includes women who were tested for           EGPAF – PMTCT       24,622    25,650
 HIV and received their results)
 Number of HIV-positive pregnant women who
 received antiretrovirals to reduce risk of mother-   EGPAF – PMTCT       4,758     4,944
 to-child transmission
 Number of the targeted population reached with
 individual and/or small group-level preventive
                                                          Pact –
 interventions that are primarily focused on
                                                       Prevention &       2,631     21,667
 abstinence and/or being faithful, and are based
                                                           Care
 on evidence and/or meet the minimum
 standards required
 Number of health-care workers who successfully        JSI – Strategic
                                                                           121       140
 completed an in-service training program               Information
                                                         Coalition –
 Number of new health-care workers who
                                                       Health System       39        30
 graduated from a preservice training institution
                                                       Strengthening
                                                         Coalition –
 Number of health-care workers who successfully
                                                       Health System       65        76
 completed an in-service training program
                                                       Strengthening

* Coalition results were not fully supported because of documentation being in transit to
IntraHealth headquarters during audit fieldwork. See Appendix IV for details of testing EGPAF
indicators.




                                                                                                17
                                                                                       Appendix IV


                         Audit Testing of Data From the
                   Elizabeth Glazer Pediatric AIDS Foundation

                                 Summary of Field Data Testing
                       Number of pregnant women with known HIV status
              (includes women who were tested for HIV and received their results)
                                                                   Total
                                                               Reported to     Percentage Difference
    Total                                                      Government          Between Data
 Reported Total Reported to      Total Verified   Percentage    of Lesotho      Reported to USAID
 to USAID USAID (Limited to        Against          Over-       (Limited to    and Data Reported to
(All EGPAF  Sites Visited           Source         (Under-)    Sites Visited      Government of
   Sites)   During Audit)         Documents        Reported    During Audit)         Lesotho
 24,622          2,142              2,023            5.9          2,049                4.34

                             Summary of Field Data Discrepancies
             Number of HIV-positive pregnant women who received antiretrovirals
                       to reduce risk of mother-to-child transmission
                                                                   Total
                                                               Reported to     Percentage Difference
    Total                                                      Government          Between Data
 Reported    Total Reported to   Total Verified   Percentage    of Lesotho      Reported to USAID
 to USAID     USAID (Limited       Against          Over-       (Limited to    and Data Reported to
(All EGPAF    to Sites Visited      Source         (Under-)    Sites Visited      Government of
   Sites)      During Audit)      Documents        Reported    During Audit)         Lesotho
  4,758            460                469           (1.9)          439                 4.57




                                                                                                 18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
